APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(October 16, 2020) . . . . . . . . . . . . . App. 1
Appendix B Judgment in the United States
District Court for the Southern
District of Ohio
(February 3, 2020) . . . . . . . . . . . . App. 5
Appendix C Statutory and Regulatory Provisions
Involved . . . . . . . . . . . . . . . . . . . . App. 15
21 U.S.C. § 841 . . . . . . . . . . . . . . App. 15
21 C.F.R. § 1306.04 . . . . . . . . . . . App. 34
2005 OAC Ann. 4731-21-02 . . . . App. 36
2017 OAC Ann. 4731-21-02 . . . . App. 42
Appendix D Complaint, Ohio v. Purdue Pharma,
L.P., et al. Excerpts. . . . . . . . . . . App. 49

App. 1

APPENDIX A
NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0590n.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case No. 20-3192
[Filed October 16, 2020]
________________________________
UNITED STATES OF AMERICA, )
Plaintiff-Appellee,
)
)
v.
)
)
MARGARET TEMPONERAS,
)
Defendant-Appellant.
)
________________________________ )
BEFORE: SUTTON, THAPAR, and READLER,
Circuit Judges.
THAPAR, Circuit Judge. Doctor Margaret
Temponeras was in the business of prescribing pain
medication. She prescribed too much, too often, with
too little regard for the consequences. That was illegal,
and she was convicted of violating federal law. We
affirm.
Temponeras owned and operated a painmanagement medical practice. Many aspects of her
work raised eyebrows. She prescribed unusually high

App. 2
volumes of addictive painkillers. Her patients paid
mostly in cash. Some traveled long distances every
month to see her. Some had track marks on their arms
and other signs of drug addiction. When local
pharmacies stopped filling her prescriptions, she
pressed forward with her own in-house dispensary. Her
suspect practices led to tragic consequences: In less
than three years, eight of her patients died from drug
overdoses.
Temponeras pled guilty to conspiring to distribute
a controlled substance outside the usual course of
professional practice. See 21 U.S.C. §§ 841(a)(1),
(b)(1)(C), 846; 21 C.F.R. § 1306.04(a). In the plea
agreement, the parties stipulated to a sentence of 36 to
84 months in prison, significantly less than the
applicable Guidelines range of 210 to 240 months. The
district court accepted the plea agreement and
sentenced Temponeras to 84 months. This appeal
followed.
Temponeras provides three reasons we should
vacate her sentence. The first is that her conviction is
based on an unconstitutionally vague law. The other
two focus on alleged misconduct by the government at
sentencing. She raised none of these objections before
the district court, so our review is for plain error. Fed.
R. Crim. P. 52(b). But under any standard of review, we
would reach the same result.
Vagueness. The Controlled Substances Act
criminalizes the “[un]authorized” distribution or
dispensing of controlled substances. 21 U.S.C.
§ 841(a)(1). When a doctor prescribes medication “for a
legitimate medical purpose . . . in the usual course of

App. 3
[her] professional practice,” her actions are authorized.
21 C.F.R. § 1306.04(a); see 21 U.S.C. § 829. Otherwise,
she violates the Act. 21 U.S.C. § 841(a).
Temponeras says that this standard—a legitimate
medical purpose in the usual course of professional
practice—is unconstitutionally vague as applied to her.
See Holder v. Humanitarian Law Project, 561 U.S. 1,
18–19 (2010). But Temponeras admitted that she was
“aware of a high probability” that her prescription
practices were neither for a legitimate medical purpose
nor part of the usual course of professional practice;
indeed she “deliberately closed her eyes” to the
“obvious.” R. 89, Pg. ID 664–65. So she cannot now
claim that the law was too vague for her to “understand
what [was] prohibited.” United States v. Krumrei, 258
F.3d 535, 537, 539 (6th Cir. 2001) (citation omitted).
Prosecutorial Misconduct. At Temponeras’s
sentencing hearing, the government introduced five
exhibits not mentioned in its sentencing memorandum.
Temponeras believes that this last-minute introduction
violated Rule 32’s regulation of sentencing proceedings
and the district court’s scheduling order. See Fed. R.
Crim. P. 32(i). Though she failed to object before the
district court, she asserts now that the violation was so
egregious that it constituted prosecutorial misconduct.
One problem with her theory is that a claim of
prosecutorial misconduct requires prejudice. United
States v. Coker, 514 F.3d 562, 568 (6th Cir. 2008).
Temponeras claims she was left flat-footed and
unprepared to respond to the new exhibits. But the
district court expressly disavowed reliance on these
materials. Indeed, other than to state it was “not

App. 4
focused on the[m],” the court never acknowledged their
existence or contents. R. 107, Pg. ID 791. So the alleged
violation left Temponeras no worse off than she was
before.
Breach of the Plea Agreement. Finally, Temponeras
contends that the government “flagrant[ly]” breached
the terms of the plea agreement by “instruct[ing] the
district court” that the agreement precluded
consideration of certain mitigating factors. Appellant
Br. 22. But the government said no such thing; it
explained its belief that no mitigating factors
warranted an even greater variance from the
Guidelines than the agreement already generously
provided. R. 107, Pg. ID 789–90. Nothing in the plea
agreement prohibited this argument. See R. 89, Pg. ID
658–62.
We affirm.

App. 5

APPENDIX B
UNITED STATES DISTRICT COURT
Southern District of Ohio
Case Number: 1:15-cr-65
USM Number: 73070-061
[Filed February 3, 2020]
________________________________
UNITED STATES OF AMERICA )
)
v.
)
)
MARGARET TEMPONERAS (1) )
________________________________ )
JUDGMENT IN A CRIMINAL CASE
Jeanne Cors____________
Defendant’s Attorney
THE DEFENDANT:
 pleaded guilty to count(s) Count 1 of the Indictment
*

*

*

App. 6
The defendant is adjudicated guilty of these offenses:
Title &
Section
21 USC §§
841(a)(1),
(b)(1)(C) &
846

Nature of
Offense

Offense
Ended

Count

Conspiracy
to Distribute
a Controlled
Substance

05/17/2011

1

The defendant is sentenced as provided in pages 2
through 7 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
* * *
 Count(s) 2, 3, & 4  are dismissed on the motion of
the United States.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special
assessments, imposed by, this judgment are fully paid.
If ordered to pay restitution, the defendant must notify
the court and United States attorney of material
changes in economic circumstances.

App. 7
11/12/2019______________________________
Date of Imposition of Judgment
s/ Timothy S. Black______________________
Signature of Judge
Timothy S. Black, United States District Judge
Name and Title of Judge
2/3/2020________________________________
Date
IMPRISONMENT
The defendant is hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned for
a total term of:
Eighty-Four (84) months
 The court makes the following recommendations to
the Bureau of Prisons:
- Placement in Federal Medical Center at Lexington
*

*

*

 The defendant shall surrender for service of sentence
at the institution designated by the Bureau of Prisons:
 as notified by the United States Marshal.
*

*

*

SUPERVISED RELEASE
Upon release from imprisonment, you will be on
supervised release for a term of:
Three (3) years

App. 8
MANDATORY CONDITIONS
1.

You must not commit another federal, state or
local crime.

2.

You must not unlawfully possess a controlled
substance.

3.

You must refrain from any unlawful use of a
controlled substance. You must submit to one
drug test within 15 days of release from
imprisonment and at least two periodic drug
tests thereafter, as determined by the court.
 The above drug testing condition is
suspended, based on the court’s
determination that you pose a low risk of
future substance abuse. (check if applicable)

4.

9 You must make restitution in accordance with
18 U.S.C. § 3663 and 3663A or any other statute
authorizing a sentence of restitution. (check if
applicable)

5.

 You must cooperate in the collection of DNA
as directed by the probation officer. (check if
applicable).

6.

9 You must comply with the requirements of the
Sex Offender Registration and Notification Act
(34 U.S.C. § 20901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any
state sex offender registration agency in the
location where you reside, work, are a student,
or were convicted of a qualifying offense. (check
if applicable).

App. 9
7.

9 You must participate in an approved program
for domestic violence. (check if applicable)

You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on
supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court
about, and bring about improvements in your conduct
and condition.
1.

You must report to the probation office in the
federal judicial district where you are authorized
to reside within 72 hours of your release from
imprisonment, unless the probation officer
instructs you to report to a different probation
office or within a different time frame.

2.

After initially reporting to the probation office,
you will receive instructions from the court or
the probation officer about how and when you
must report to the probation officer, and you
must report to the probation officer as
instructed.

3.

You must not knowingly leave the federal
judicial district where you are authorized to
reside without first getting permission from the
court or the probation officer.

App. 10
4.

You must answer truthfully the questions asked
by your probation officer.

5.

You must live at a place approved by the
probation officer. If you plan to change where
you live or anything about your living
arrangements (such as the people you live with),
you must notify the probation officer at least 10
days before the change. If notifying the
probation officer in advance is not possible due
to unanticipated circumstances, you must notify
the probation officer within 72 hours of
becoming aware of a change or expected change.

6.

You must allow the probation officer to visit you
at any time at your home or elsewhere, and you
must permit the probation officer to take any
items prohibited by the conditions of your
supervision that he or she observes in plain
view.

7.

You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If
you do not have full-time employment you must
try to find full-time employment, unless the
probation officer excuses you from doing so. If
you plan to change where you work or anything
about your work (such as your position or your
job responsibilities), you must notify the
probation officer at least 10 days before the
change. If notifying the probation officer at least
10 days in advance is not possible due to
unanticipated circumstances, you must notify

App. 11
the probation officer within 72 hours of
becoming aware of a change or expected change.
8.

You must not communicate or interact with
someone you know is engaged in criminal
activity. If you know someone has been convicted
of a felony, you must not knowingly
communicate or interact with that person
without first getting the permission of the
probation officer.

9.

If you are arrested or questioned by a law
enforcement officer, you must notify the
probation officer within 72 hours.

10.

You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was
designed, or was modified for, the specific
purpose of causing bodily injury or death to
another person such as nunchakus or tasers).

11.

You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.

12.

If the probation officer determines that you pose
a risk to another person (including an
organization), the probation officer may require
you to notify the person about the risk and you
must comply with that instruction. The
probation officer may contact the person and
confirm that you have notified the person about
the risk.

App. 12
13.

You must follow the instructions of the
probation officer related to the conditions of
supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. For further information regarding these
conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant’s Signature _________________________
Date __________________
SPECIAL CONDITIONS OF SUPERVISION
1. The defendant shall not be employed directly or
indirectly in the medical field and shall not prescribe
medication.
2. The defendant shall provide the probation officer
with access to any requested financial information and
authorize the release of any financial information; and
3. The defendant shall not incur new credit charges on
existing lines of credit, or open additional lines of credit
without the approval of the probation officer.
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal
monetary penalties under the schedule of payments on
Sheet 6.

App. 13
Assessment JVTA
Fine
Assessment*
TOTALS $100.00

Restitution

$75,000.00

*

*

*

 The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
 the interest requirement is waived for the  fine
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is due
as follows:
A  Lump sum payment of $ 75,100.00 due
immediately, balance due
 in accordance with  F below; or
*

*

*

F  Special instructions regarding the payment of
criminal monetary penalties:
While incarcerated, if Defendant is working in a
non-UNICOR or grade UNICOR job, Defendant
shall pay $25 per quarter toward her financial
obligation. If Defendant is working in a grade 1-4
UNICOR job, Defendant shall pay 50% of her
monthly pay toward his financial obligation. Any
change in this schedule of payments shall be made

App. 14
only by order of this Court. Within 30 days of
commencement of supervision, Defendant shall
begin making payments toward any outstanding
portion of her criminal financial obligations,
pursuant to a payment plan as determined by the
Probation Officer and approved by the Court.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period of
imprisonment. All criminal monetary penalties, except
those payments made through the Federal Bureau of
Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
*

*

*

 The defendant shall forfeit the defendant’s interest
in the following property to the United States:
Proceeds gained from the unlawful prescriptions
written at Unique Pain Management.
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest,
(6) community restitution, (7) JVTA assessment,
(8) penalties, and (9) costs, including cost of prosecution
and court costs.

App. 15

APPENDIX C
21 U.S.C. § 841 - Prohibited acts
(a) Unlawful acts
Except as authorized by this subchapter, it shall be
unlawful for any person knowingly or intentionally—
(1) to manufacture, distribute, or dispense, or possess
with intent to manufacture, distribute, or dispense, a
controlled substance; or
(2) to create, distribute, or dispense, or possess with
intent to distribute or dispense, a counterfeit
substance.
(b) Penalties
Except as otherwise provided in section 849, 859, 860,
or 861 of this title, any person who violates subsection
(a) of this section shall be sentenced as follows:
(1)
(A) In the case of a violation of subsection (a) of this
section involving—
(i) 1 kilogram or more of a mixture or substance
containing a detectable amount of heroin;
(ii) 5 kilograms or more of a mixture or substance
containing a detectable amount of—

App. 16
(I) coca leaves, except coca leaves and extracts of coca
leaves from which cocaine, ecgonine, and derivatives of
ecgonine or their salts have been removed;
(II) cocaine, its salts, optical and geometric isomers,
and salts of isomers;
(III) ecgonine, its derivatives, their salts, isomers, and
salts of isomers; or
(IV) any compound, mixture, or preparation which
contains any quantity of any of the substances referred
to in subclauses (I) through (III);
(iii) 280 grams or more of a mixture or substance
described in clause (ii) which contains cocaine base;
(iv) 100 grams or more of phencyclidine (PCP) or 1
kilogram or more of a mixture or substance containing
a detectable amount of phencyclidine (PCP);
(v) 10 grams or more of a mixture or substance
containing a detectable amount of lysergic acid
diethylamide (LSD);
(vi) 400 grams or more of a mixture or substance
containing a detectable amount of N-phenyl-N- [1(2-phenylethyl) -4-piperidinyl] propanamide or 100
grams or more of a mixture or substance containing a
detectable amount of any anal ogue of
N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
propanamide;
(vii) 1000 kilograms or more of a mixture or substance
containing a detectable amount of marihuana, or 1,000
or more marihuana plants regardless of weight; or

App. 17
(viii) 50 grams or more of methamphetamine, its salts,
isomers, and salts of its isomers or 500 grams or more
of a mixture or substance containing a detectable
amount of methamphetamine, its salts, isomers, or
salts of its isomers;
such person shall be sentenced to a term of
imprisonment which may not be less than 10 years or
more than life and if death or serious bodily injury
results from the use of such substance shall be not less
than 20 years or more than life, a fine not to exceed the
greater of that authorized in accordance with the
provisions of title 18 or $10,000,000 if the defendant is
an individual or $50,000,000 if the defendant is other
than an individual, or both. If any person commits such
a violation after a prior conviction for a serious drug
felony or serious violent felony has become final, such
person shall be sentenced to a term of imprisonment of
not less than 15 years and not more than life
imprisonment and if death or serious bodily injury
results from the use of such substance shall be
sentenced to life imprisonment, a fine not to exceed the
greater of twice that authorized in accordance with the
provisions of title 18 or $20,000,000 if the defendant is
an individual or $75,000,000 if the defendant is other
than an individual, or both. If any person commits a
violation of this subparagraph or of section 849, 859,
860, or 861 of this title after 2 or more prior convictions
for a serious drug felony or serious violent felony have
become final, such person shall be sentenced to a term
of imprisonment of not less than 25 years and fined in
accordance with the preceding sentence.
Notwithstanding section 3583 of title 18, any sentence
under this subparagraph shall, in the absence of such

App. 18
a prior conviction, impose a term of supervised release
of at least 5 years in addition to such term of
imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of at
least 10 years in addition to such term of
imprisonment. Notwithstanding any other provision of
law, the court shall not place on probation or suspend
the sentence of any person sentenced under this
subparagraph. No person sentenced under this
subparagraph shall be eligible for parole during the
term of imprisonment imposed therein.
(B) In the case of a violation of subsection (a) of this
section involving—
(i) 100 grams or more of a mixture or substance
containing a detectable amount of heroin;
(ii) 500 grams or more of a mixture or substance
containing a detectable amount of—
(I) coca leaves, except coca leaves and extracts of coca
leaves from which cocaine, ecgonine, and derivatives of
ecgonine or their salts have been removed;
(II) cocaine, its salts, optical and geometric isomers,
and salts of isomers;
(III) ecgonine, its derivatives, their salts, isomers, and
salts of isomers; or
(IV) any compound, mixture, or preparation which
contains any quantity of any of the substances referred
to in subclauses (I) through (III);
(iii) 28 grams or more of a mixture or substance
described in clause (ii) which contains cocaine base;

App. 19
(iv) 10 grams or more of phencyclidine (PCP) or 100
grams or more of a mixture or substance containing a
detectable amount of phencyclidine (PCP);
(v) 1 gram or more of a mixture or substance containing
a detectable amount of lysergic acid diethylamide
(LSD);
(vi) 40 grams or more of a mixture or substance
containing a detectable amount of N-phenyl-N- [1(2-phenylethyl) -4-piperidinyl] propanamide or 10
grams or more of a mixture or substance containing a
detectable amount of any analogue of N-phenylN-[1-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 100 kilograms or more of a mixture or substance
containing a detectable amount of marihuana, or 100 or
more marihuana plants regardless of weight; or
(viii) 5 grams or more of methamphetamine, its salts,
isomers, and salts of its isomers or 50 grams or more of
a mixture or substance containing a detectable amount
of methamphetamine, its salts, isomers, or salts of its
isomers;
such person shall be sentenced to a term of
imprisonment which may not be less than 5 years and
not more than 40 years and if death or serious bodily
injury results from the use of such substance shall be
not less than 20 years or more than life, a fine not to
exceed the greater of that authorized in accordance
with the provisions of title 18 or $5,000,000 if the
defendant is an individual or $25,000,000 if the
defendant is other than an individual, or both. If any
person commits such a violation after a prior conviction
for a serious drug felony or serious violent felony has

App. 20
become final, such person shall be sentenced to a term
of imprisonment which may not be less than 10 years
and not more than life imprisonment and if death or
serious bodily injury results from the use of such
substance shall be sentenced to life imprisonment, a
fine not to exceed the greater of twice that authorized
in accordance with the provisions of title 18 or
$8,000,000 if the defendant is an individual or
$50,000,000 if the defendant is other than an
individual, or both. Notwithstanding section 3583 of
title 18, any sentence imposed under this subparagraph
shall, in the absence of such a prior conviction, include
a term of supervised release of at least 4 years in
addition to such term of imprisonment and shall, if
there was such a prior conviction, include a term of
supervised release of at least 8 years in addition to
such term of imprisonment. Notwithstanding any other
provision of law, the court shall not place on probation
or suspend the sentence of any person sentenced under
this subparagraph. No person sentenced under this
subparagraph shall be eligible for parole during the
term of imprisonment imposed therein.
(C) In the case of a controlled substance in schedule I
or II, gamma hydroxybutyric acid (including when
scheduled as an approved drug product for purposes of
section 3(a)(1)(B) of the Hillory J. Farias and
Samantha Reid Date-Rape Drug Prohibition Act of
2000), or 1 gram of flunitrazepam, except as provided
in subparagraphs (A), (B), and (D), such person shall be
sentenced to a term of imprisonment of not more than
20 years and if death or serious bodily injury results
from the use of such substance shall be sentenced to a
term of imprisonment of not less than twenty years or

App. 21
more than life, a fine not to exceed the greater of that
authorized in accordance with the provisions of title 18
or $1,000,000 if the defendant is an individual or
$5,000,000 if the defendant is other than an individual,
or both. If any person commits such a violation after a
prior conviction for a felony drug offense has become
final, such person shall be sentenced to a term of
imprisonment of not more than 30 years and if death or
serious bodily injury results from the use of such
substance shall be sentenced to life imprisonment, a
fine not to exceed the greater of twice that authorized
in accordance with the provisions of title 18 or
$2,000,000 if the defendant is an individual or
$10,000,000 if the defendant is other than an
individual, or both. Notwithstanding section 3583 of
title 18, any sentence imposing a term of imprisonment
under this paragraph shall, in the absence of such a
prior conviction, impose a term of supervised release of
at least 3 years in addition to such term of
imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of at
least 6 years in addition to such term of imprisonment.
Notwithstanding any other provision of law, the court
shall not place on probation or suspend the sentence of
any person sentenced under the provisions of this
subparagraph which provide for a mandatory term of
imprisonment if death or serious bodily injury results,
nor shall a person so sentenced be eligible for parole
during the term of such a sentence.
(D) In the case of less than 50 kilograms of marihuana,
except in the case of 50 or more marihuana plants
regardless of weight, 10 kilograms of hashish, or one
kilogram of hashish oil, such person shall, except as

App. 22
provided in paragraphs (4) and (5) of this subsection, be
sentenced to a term of imprisonment of not more than
5 years, a fine not to exceed the greater of that
authorized in accordance with the provisions of title 18
or $250,000 if the defendant is an individual or
$1,000,000 if the defendant is other than an individual,
or both. If any person commits such a violation after a
prior conviction for a felony drug offense has become
final, such person shall be sentenced to a term of
imprisonment of not more than 10 years, a fine not to
exceed the greater of twice that authorized in
accordance with the provisions of title 18 or $500,000
if the defendant is an individual or $2,000,000 if the
defendant is other than an individual, or both.
Notwithstanding section 3583 of title 18, any sentence
imposing a term of imprisonment under this paragraph
shall, in the absence of such a prior conviction, impose
a term of supervised release of at least 2 years in
addition to such term of imprisonment and shall, if
there was such a prior conviction, impose a term of
supervised release of at least 4 years in addition to
such term of imprisonment.
(E)
(i) Except as provided in subparagraphs (C) and (D), in
the case of any controlled substance in schedule III,
such person shall be sentenced to a term of
imprisonment of not more than 10 years and if death or
serious bodily injury results from the use of such
substance shall be sentenced to a term of imprisonment
of not more than 15 years, a fine not to exceed the
greater of that authorized in accordance with the
provisions of title 18 or $500,000 if the defendant is an

App. 23
individual or $2,500,000 if the defendant is other than
an individual, or both.
(ii) If any person commits such a violation after a prior
conviction for a felony drug offense has become final,
such person shall be sentenced to a term of
imprisonment of not more than 20 years and if death or
serious bodily injury results from the use of such
substance shall be sentenced to a term of imprisonment
of not more than 30 years, a fine not to exceed the
greater of twice that authorized in accordance with the
provisions of title 18 or $1,000,000 if the defendant is
an individual or $5,000,000 if the defendant is other
than an individual, or both.
(iii) Any sentence imposing a term of imprisonment
under this subparagraph shall, in the absence of such
a prior conviction, impose a term of supervised release
of at least 2 years in addition to such term of
imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of at
least 4 years in addition to such term of imprisonment.
(2) In the case of a controlled substance in schedule IV,
such person shall be sentenced to a term of
imprisonment of not more than 5 years, a fine not to
exceed the greater of that authorized in accordance
with the provisions of title 18 or $250,000 if the
defendant is an individual or $1,000,000 if the
defendant is other than an individual, or both. If any
person commits such a violation after a prior conviction
for a felony drug offense has become final, such person
shall be sentenced to a term of imprisonment of not
more than 10 years, a fine not to exceed the greater of
twice that authorized in accordance with the provisions

App. 24
of title 18 or $500,000 if the defendant is an individual
or $2,000,000 if the defendant is other than an
individual, or both. Any sentence imposing a term of
imprisonment under this paragraph shall, in the
absence of such a prior conviction, impose a term of
supervised release of at least one year in addition to
such term of imprisonment and shall, if there was such
a prior conviction, impose a term of supervised release
of at least 2 years in addition to such term of
imprisonment.
(3) In the case of a controlled substance in schedule V,
such person shall be sentenced to a term of
imprisonment of not more than one year, a fine not to
exceed the greater of that authorized in accordance
with the provisions of title 18 or $100,000 if the
defendant is an individual or $250,000 if the defendant
is other than an individual, or both. If any person
commits such a violation after a prior conviction for a
felony drug offense has become final, such person shall
be sentenced to a term of imprisonment of not more
than 4 years, a fine not to exceed the greater of twice
that authorized in accordance with the provisions of
title 18 or $200,000 if the defendant is an individual or
$500,000 if the defendant is other than an individual,
or both. Any sentence imposing a term of imprisonment
under this paragraph may, if there was a prior
conviction, impose a term of supervised release of not
more than 1 year, in addition to such term of
imprisonment.
(4) Notwithstanding paragraph (1)(D) of this
subsection, any person who violates subsection (a) of
this section by distributing a small amount of

App. 25
marihuana for no remuneration shall be treated as
provided in section 844 of this title and section 3607 of
title 18.
(5) Any person who violates subsection (a) of this
section by cultivating or manufacturing a controlled
substance on Federal property shall be imprisoned as
provided in this subsection and shall be fined any
amount not to exceed—
(A) the amount authorized in accordance with this
section;
(B) the amount authorized in accordance with the
provisions of title 18;
(C) $500,000 if the defendant is an individual; or
(D) $1,000,000 if the defendant is other than an
individual; or both.
(6) Any person who violates subsection (a), or attempts
to do so, and knowingly or intentionally uses a poison,
chemical, or other hazardous substance on Federal
land, and, by such use—
(A) creates a serious hazard to humans, wildlife, or
domestic animals,
(B) degrades or harms the environment or natural
resources, or
(C) pollutes an aquifer, spring, stream, river, or body of
water,
shall be fined in accordance with title 18 or imprisoned
not more than five years, or both.

App. 26
(7) Penalties for distribution.—
(A) In general.—
Whoever, with intent to commit a crime of violence, as
defined in section 16 of title 18 (including rape),
against an individual, violates subsection (a) by
distributing a controlled substance or controlled
substance analogue to that individual without that
individual’s knowledge, shall be imprisoned not more
than 20 years and fined in accordance with title 18.
(B) Definition.—
For purposes of this paragraph, the term “without that
individual’s knowledge” means that the individual is
unaware that a substance with the ability to alter that
individual’s ability to appraise conduct or to decline
participation in or communicate unwillingness to
participate in conduct is administered to the
individual.
(c) Offenses involving listed chemicals
Any person who knowingly or intentionally—
(1) possesses a listed chemical with intent to
manufacture a controlled substance except as
authorized by this subchapter;
(2) possesses or distributes a listed chemical knowing,
or having reasonable cause to believe, that the listed
chemical will be used to manufacture a controlled
substance except as authorized by this subchapter; or
(3) with the intent of causing the evasion of the
recordkeeping or reporting requirements of section 830

App. 27
of this title, or the regulations issued under that
section, receives or distributes a reportable amount of
any listed chemical in units small enough so that the
making of records or filing of reports under that section
is not required;
shall be fined in accordance with title 18 or imprisoned
not more than 20 years in the case of a violation of
paragraph (1) or (2) involving a list I chemical or not
more than 10 years in the case of a violation of this
subsection other than a violation of paragraph (1) or (2)
involving a list I chemical, or both.
(d) Boobytraps on Federal property; penalties;
“boobytrap” defined
(1) Any person who assembles, maintains, places, or
causes to be placed a boobytrap on Federal property
where a controlled substance is being manufactured,
distributed, or dispensed shall be sentenced to a term
of imprisonment for not more than 10 years or fined
under title 18, or both.
(2) If any person commits such a violation after 1 or
more prior convictions for an offense punishable under
this subsection, such person shall be sentenced to a
term of imprisonment of not more than 20 years or
fined under title 18, or both.
(3) For the purposes of this subsection, the term
“boobytrap” means any concealed or camouflaged
device designed to cause bodily injury when triggered
by any action of any unsuspecting person making
contact with the device. Such term includes guns,
ammunition, or explosive devices attached to trip wires

App. 28
or other triggering mechanisms, sharpened stakes, and
lines or wires with hooks attached.
(e) Ten-year injunction as additional penalty
In addition to any other applicable penalty, any person
convicted of a felony violation of this section relating to
the receipt, distribution, manufacture, exportation, or
importation of a listed chemical may be enjoined from
engaging in any transaction involving a listed chemical
for not more than ten years.
(f) Wrongful distribution or possession of listed
chemicals
(1) Whoever knowingly distributes a listed chemical in
violation of this subchapter (other than in violation of
a recordkeeping or reporting requirement of section 830
of this title) shall, except to the extent that paragraph
(12), (13), or (14) of section 842(a) of this title applies,
be fined under title 18 or imprisoned not more than 5
years, or both.
(2) Whoever possesses any listed chemical, with
knowledge that the recordkeeping or reporting
requirements of section 830 of this title have not been
adhered to, if, after such knowledge is acquired, such
person does not take immediate steps to remedy the
violation shall be fined under title 18 or imprisoned not
more than one year, or both.
(g) Internet sales of date rape drugs
(1) Whoever knowingly uses the Internet to distribute
a date rape drug to any person, knowing or with
reasonable cause to believe that—

App. 29
(A) the drug would be used in the commission of
criminal sexual conduct; or
(B) the person is not an authorized purchaser;
shall be fined under this subchapter or imprisoned not
more than 20 years, or both.
(2) As used in this subsection:
(A) The term “date rape drug” means—
(i) gamma hydroxybutyric acid (GHB) or any controlled
substance analogue of GHB, including gamma
butyrolactone (GBL) or 1,4–butanediol;
(ii) ketamine;
(iii) flunitrazepam; or
(iv) any substance which the Attorney General
designates, pursuant to the rulemaking procedures
prescribed by section 553 of title 5, to be used in
committing rape or sexual assault.
The Attorney General is authorized to remove any
substance from the list of date rape drugs pursuant to
the same rulemaking authority.
(B) The term “authorized purchaser” means any of the
following persons, provided such person has acquired
the controlled substance in accordance with this
chapter:
(i) A person with a valid prescription that is issued for
a legitimate medical purpose in the usual course of
professional practice that is based upon a qualifying
medical relationship by a practitioner registered by the

App. 30
Attorney General. A “qualifying medical relationship”
means a medical relationship that exists when the
practitioner has conducted at least 1 medical
evaluation with the authorized purchaser in the
physical presence of the practitioner, without regard to
whether portions of the evaluation are conducted by
other heath [1] professionals. The preceding sentence
shall not be construed to imply that 1 medical
evaluation demonstrates that a prescription has been
issued for a legitimate medical purpose within the
usual course of professional practice.
(ii) Any practitioner or other registrant who is
otherwise authorized by their registration to dispense,
procure, purchase, manufacture, transfer, distribute,
import, or export the substance under this chapter.
(iii) A person or entity providing documentation that
establishes the name, address, and business of the
person or entity and which provides a legitimate
purpose for using any “date rape drug” for which a
prescription is not required.
(3) The Attorney General is authorized to promulgate
regulations for record-keeping and reporting by persons
handling 1,4–butanediol in order to implement and
enforce the provisions of this section. Any record or
report required by such regulations shall be considered
a record or report required under this chapter.
(h) Offenses involving dispensing of controlled
substances by means of the Internet

App. 31
(1) In general
It shall be unlawful for any person to knowingly or
intentionally—
(A) deliver, distribute, or dispense a controlled
substance by means of the Internet, except as
authorized by this subchapter; or
(B) aid or abet (as such terms are used in section 2 of
title 18) any activity described in subparagraph (A)
that is not authorized by this subchapter.
(2) Examples
Examples of activities that violate paragraph (1)
include, but are not limited to, knowingly or
intentionally—
(A) delivering, distributing, or dispensing a controlled
substance by means of the Internet by an online
pharmacy that is not validly registered with a
modification authorizing such activity as required by
section 823(f) of this title (unless exempt from such
registration);
(B) writing a prescription for a controlled substance for
the purpose of delivery, distribution, or dispensation by
means of the Internet in violation of section 829(e) of
this title;
(C) serving as an agent, intermediary, or other entity
that causes the Internet to be used to bring together a
buyer and seller to engage in the dispensing of a
controlled substance in a manner not authorized by
sections [2] 823(f) or 829(e) of this title;

App. 32
(D) offering to fill a prescription for a controlled
substance based solely on a consumer’s completion of
an online medical questionnaire; and
(E) making a material false, fictitious, or fraudulent
statement or representation in a notification or
declaration under subsection (d) or (e), respectively, of
section 831 of this title.
(3) Inapplicability
(A) This subsection does not apply to—
(i) the delivery, distribution, or dispensation of
controlled substances by nonpractitioners to the extent
authorized by their registration under this subchapter;
(ii) the placement on the Internet of material that
merely advocates the use of a controlled substance or
includes pricing information without attempting to
propose or facilitate an actual transaction involving a
controlled substance; or
(iii) except as provided in subparagraph (B), any
activity that is limited to—
(I) the provision of a telecommunications service, or of
an Internet access service or Internet information
location tool (as those terms are defined in section 231
of title 47); or
(II) the transmission, storage, retrieval, hosting,
formatting, or translation (or any combination thereof)
of a communication, without selection or alteration of
the content of the communication, except that deletion
of a particular communication or material made by
another person in a manner consistent with section

App. 33
230(c) of title 47 shall not constitute such selection or
alteration of the content of the communication.
(B) The exceptions under subclauses (I) and (II) of
subparagraph (A)(iii) shall not apply to a person acting
in concert with a person who violates paragraph (1).
(4) Knowing or intentional violation
Any person who knowingly or intentionally violates
this subsection shall be sentenced in accordance with
subsection (b).

App. 34
21 C.F.R. § 1306.04 - Purpose of issue of
prescription.
(a) A prescription for a controlled substance to be
effective must be issued for a legitimate medical
purpose by an individual practitioner acting in the
usual course of his professional practice. The
responsibility for the proper prescribing and dispensing
of controlled substances is upon the prescribing
practitioner, but a corresponding responsibility rests
with the pharmacist who fills the prescription. An
order purporting to be a prescription issued not in the
usual course of professional treatment or in legitimate
and authorized research is not a prescription within
the meaning and intent of section 309 of the Act (21
U.S.C. 829) and the person knowingly filling such a
purported prescription, as well as the person issuing it,
shall be subject to the penalties provided for violations
of the provisions of law relating to controlled
substances.
(b) A prescription may not be issued in order for an
individual practitioner to obtain controlled substances
for supplying the individual practitioner for the
purpose of general dispensing to patients.
(c) A prescription may not be issued for “detoxification
treatment” or “maintenance treatment,” unless the
prescription is for a Schedule III, IV, or V narcotic drug
approved by the Food and Drug Administration
specifically for use in maintenance or detoxification
treatment and the practitioner is in compliance with
requirements in § 1301.28 of this chapter.

App. 35
(d) A prescription may be issued by a qualifying
practitioner, as defined in section 303(g)(2)G)(iii) of the
Act (21 U.S.C. 823(g)(2)(G)(iii), in accordance with
§ 1306.05 for a Schedule III, IV, or V controlled
substance for the purpose of maintenance or
detoxification treatment for the purposes of
administration in accordance with section 309A of the
Act (21 U.S.C. 829a) and § 1306.07(f). Such prescription
issued by a qualifying practitioner shall not be used to
supply any practitioner with a stock of controlled
substances for the purpose of general dispensing to
patients.

App. 36
2005 OAC Ann. 4731-21-02
4731-21-02 Utilizing prescription drugs for the
treatment of intractable pain.
(A) When utilizing any prescription drug for the
treatment of intractable pain on a protracted basis or
when managing intractable pain with prescription
drugs in amounts or combinations that may not be
appropriate when treating other medical conditions, a
practitioner shall comply with accepted and prevailing
standards of care which shall include, but not be
limited to, the following:
(1) An initial evaluation of the patient shall be
conducted and documented in the patient’s record that
includes a relevant history, including complete medical,
pain, alcohol and substance abuse histories; an
assessment of the impact of pain on the patient’s
physical and psychological functions; a review of
previous diagnostic studies and previously utilized
therapies; an assessment of coexisting illnesses,
diseases or conditions; and an appropriate physical
examination;
(2) A medical diagnosis shall be established and
documented in the patient’s medical record that
indicates not only the presence of intractable pain but
also the signs, symptoms, and causes and, if
determinable, the nature of the underlying disease and
pain mechanism;
(3) An individualized treatment plan shall be
formulated and documented in the patient’s medical
record. The treatment plan shall specify the medical
justification of the treatment of intractable pain by

App. 37
utilizing prescription drugs on a protracted basis or in
amounts or combinations that may not be appropriate
when treating other medical conditions, the intended
role of prescription drug therapy within the overall
plan, and, when applicable, documentation that other
medically reasonable treatments for relief of the
patient’s intractable pain have been offered or
attempted without adequate or reasonable success. The
prescription drug therapy shall be tailored to the
individual medical needs of each patient. The
practitioner shall document the patient’s response to
treatment and, as necessary, modify the treatment
plan;
(4) (a) The practitioner’s diagnosis of intractable pain
shall be made after having the patient evaluated by one
or more other practitioners who specialize in the
treatment of the anatomic area, system, or organ of the
body perceived as the source of the pain. For purposes
of this rule, a practitioner “specializes” if the
practitioner limits the whole or part of his or her
practice, and is qualified by advanced training or
experience to so limit his or her practice, to the
particular anatomic area, system, or organ of the body
perceived as the source of the pain. The evaluation
shall include review of all available medical records of
prior treatment of the intractable pain or the condition
underlying the intractable pain; a thorough history and
physical examination; and testing as required by
accepted and prevailing standards of care. The
practitioner shall maintain a copy of any report made
by any practitioner to whom referral for evaluation was
made under this paragraph. A practitioner shall not
provide an evaluation under this paragraph if that

App. 38
practitioner would be prohibited by sections 4731.65 to
4731.69 of the Revised Code or any other rule adopted
by the board from providing a designated health service
upon referral by the treating practitioner; and
(b) The practitioner shall not be required to obtain
such an evaluation, if the practitioner obtains a copy of
medical records or a detailed written summary thereof
showing that the patient has been evaluated and
treated within a reasonable period of time by one or
more other practitioners who specialize in the
treatment of the anatomic area, system, or organ of the
body perceived as the source of the pain and the
treating practitioner is satisfied that he or she can rely
on that evaluation for purposes of meeting the further
requirements of this chapter of the Administrative
Code. The practitioner shall obtain and review all
available medical records or detailed written
summaries thereof of prior treatment of the intractable
pain or the condition underlying the intractable pain.
The practitioner shall maintain a copy of any record or
report of any practitioner on which the practitioner
relied for purposes of meeting the requirements under
this paragraph; and
(5) The practitioner shall ensure and document in the
patient’s record that the patient or other individual
who has the authority to provide consent to treatment
on behalf of that patient gives consent to treatment
after being informed of the benefits and risks of
receiving prescription drug therapy on a protracted
basis or in amounts or combinations that may not be
appropriate when treating other medical conditions,

App. 39
and after being informed of available treatment
alternatives.
(B) Upon completion and satisfaction of the conditions
prescribed in paragraph (A) of this rule, and upon a
practitioner’s judgment that the continued utilization
of prescription drugs is medically warranted for the
treatment of intractable pain, a practitioner may
utilize prescription drugs on a protracted basis or in
amounts or combinations that may not be appropriate
when treating other medical conditions, provided that
the practitioner continues to adhere to accepted and
prevailing standards of care which shall include, but
not be limited to, the following:
(1) Patients shall be seen by the practitioner at
appropriate periodic intervals to assess the efficacy of
treatment, assure that prescription drug therapy
remains indicated, evaluate the patient’s progress
toward treatment objectives and note any adverse drug
effects. During each visit, attention shall be given to
changes in the patient’s ability to function or to the
patient’s quality of life as a result of prescription drug
usage, as well as indications of possible addiction, drug
abuse or diversion. Compliance with this paragraph of
the rule shall be documented in the patient’s medical
record;
(2) Some patients with intractable pain may be at risk
of developing increasing prescription drug consumption
without improvement in functional status. Subjective
reports by the patient should be supported by objective
data. Objective measures in the patient’s condition are
determined by an ongoing assessment of the patient’s
functional status, including the ability to engage in

App. 40
work or other gainful activities, the pain intensity and
its interference with activities of daily living, quality of
family life and social activities, and physical activity of
the patient. Compliance with this paragraph of the rule
shall be documented in the patient’s medical record;
(3) Based on evidence or behavioral indications of
addiction or drug abuse, the practitioner may obtain a
drug screen on the patient. It is within the
practitioner’s discretion to decide the nature of the
screen and which type of drug(s) to be screened. If the
practitioner obtains a drug screen for the reasons
described in this paragraph, the practitioner shall
document the results of the drug screen in the patient’s
medical record. If the patient refuses to consent to a
drug screen ordered by the practitioner, the
practitioner shall make a referral as provided in
paragraph (C) of this rule;
(4) The practitioner shall document in the patient’s
medical record the medical necessity for utilizing more
than one controlled substance in the management of a
patient’s intractable pain; and
(5) The practitioner shall document in the patient’s
medical record the name and address of the patient to
or for whom the prescription drugs were prescribed,
dispensed, or administered, the dates on which
prescription drugs were prescribed, dispensed, or
administered, and the amounts and dosage forms of the
prescription drugs prescribed, dispensed, or
administered, including refills.
(C) If the practitioner believes or has reason to believe
that the patient is suffering from addiction or drug

App. 41
abuse, the practitioner shall immediately consult with
an addiction medicine or other substance abuse
specialist. For purposes of this rule, “addiction
medicine or substance abuse specialist” means a
physician who is qualified by advanced formal training
in addiction medicine or other substance abuse
specialty, and includes a medical doctor or doctor of
osteopathic medicine who is certified by a specialty
examining board to so limit the whole or part of his or
her practice. Prescription drug therapy may be
continued consistent with the recommendations of the
consultation, including, if the consulting addiction
medicine or other substance abuse specialist
recommends that it is necessary, prompt referral to an
addiction medicine or other substance abuse specialist
for physical examination and evaluation of the patient
and a review of the referring practitioner’s medical
records of the patient. The practitioner shall document
the recommendations of the consultation in the
patient’s record. The practitioner shall continue to
actively monitor the patient for signs and symptoms of
addiction, drug abuse or diversion. The practitioner
shall maintain a copy of any written report made by
any practitioner to whom referral for evaluation was
made under this paragraph.

App. 42
2017 OAC Ann. 4731-21-02
4731-21-02. Utilizing prescription drugs for the
treatment of chronic pain.
(A) When utilizing any prescription drug for the
treatment of chronic pain, a practitioner shall comply
with accepted and prevailing standards of care which
shall include, but not be limited to, the following:
(1) An initial evaluation of the patient shall be
conducted and documented in the patient’s record that
includes a relevant history, including complete medical,
pain, alcohol and substance abuse histories; an
assessment of the impact of pain on the patient’s
physical and psychological functions; a review of
previous diagnostic studies and previously utilized
therapies; an assessment of coexisting illnesses,
diseases or conditions; and an appropriate physical
examination;
(2) A medical diagnosis shall be established and
documented in the patient’s medical record that
indicates not only the presence of chronic pain but also
the signs, symptoms, and causes and, if determinable,
the nature of the underlying disease and pain
mechanism;
(3) An individualized treatment plan shall be
formulated and documented in the patient’s medical
record. The treatment plan shall specify the treatment
proposed, the patient’s response to treatment, and any
modification to the treatment plan. The treatment plan
shall include the medical justification and the intended
role of prescription drug therapy within the overall
plan, and documentation that other medically

App. 43
reasonable treatments for relief of the patient’s chronic
pain have been offered or attempted without adequate
or reasonable success. The prescription drug therapy
shall be tailored to the individual medical needs of each
patient.
(4) (a) The practitioner’s diagnosis of chronic pain shall
be made after having the patient evaluated by one or
more other practitioners who specialize in the
treatment of the anatomic area, system, or organ of the
body perceived as the source of the pain. For purposes
of this rule, a practitioner “specializes” if the
practitioner limits the whole or part of his or her
practice, and is qualified by advanced training or
experience to so limit his or her practice, to the
particular anatomic area, system, or organ of the body
perceived as the source of the pain. The evaluation
shall include review of all available medical records of
prior treatment of the chronic pain or the condition
underlying the chronic pain; a thorough history and
physical examination; and testing as required by
accepted and prevailing standards of care. The
practitioner shall maintain a copy of any report made
by any practitioner to whom referral for evaluation was
made under this paragraph. A practitioner shall not
provide an evaluation under this paragraph if that
practitioner would be prohibited by sections 4731.65 to
4731.69 of the Revised Code or any other rule adopted
by the board from providing a designated health service
upon referral by the treating practitioner; and
(b) The practitioner shall not be required to obtain
such an evaluation, if the practitioner obtains a copy of
medical records or a detailed written summary thereof

App. 44
showing that the patient has been evaluated and
treated within a reasonable period of time by one or
more other practitioners who specialize in the
treatment of the anatomic area, system, or organ of the
body perceived as the source of the pain and the
treating practitioner is satisfied that he or she can rely
on that evaluation for purposes of meeting the further
requirements of this chapter of the Administrative
Code. The practitioner shall obtain and review all
available medical records or detailed written
summaries of prior treatment of the chronic pain or the
condition underlying the chronic pain. The practitioner
shall maintain a copy of any record or report of any
practitioner on which the practitioner relied for
purposes of meeting the requirements under this
paragraph; and
(5) The practitioner shall ensure and document in the
patient’s record that the patient or other individual
who has the authority to provide consent to treatment
on behalf of that patient gives consent to treatment
after being informed of the benefits and risks of
receiving prescription drug therapy for chronic pain
and after being informed of available treatment
alternatives.
(B) Upon completion and satisfaction of the conditions
prescribed in paragraph (A) of this rule, and upon a
practitioner’s judgment that the continued utilization
of prescription drugs is medically warranted for the
treatment of chronic pain, a practitioner may utilize
prescription drugs provided that the practitioner
continues to adhere to accepted and prevailing

App. 45
standards of care which shall include, but not be
limited to, the following:
(1) Patients shall be seen by the practitioner at
appropriate periodic intervals to assess the efficacy of
treatment, assure that prescription drug therapy
remains indicated, evaluate the patient’s progress
toward treatment objectives and note any adverse drug
effects. During each visit, attention shall be given to
changes in the patient’s ability to function or to the
patient’s quality of life as a result of prescription drug
usage, as well as indications of possible addiction, drug
abuse or diversion. Compliance with this paragraph of
the rule shall be documented in the patient’s medical
record;
(2) Some patients with chronic pain may be at risk of
developing increasing prescription drug consumption
without improvement in functional status. Subjective
reports by the patient should be supported by objective
data. Objective measures in the patient’s condition are
determined by an ongoing assessment of the patient’s
functional status, including the ability to engage in
work or other gainful activities, the pain intensity and
its interference with activities of daily living, quality of
family life and social activities, and physical activity of
the patient. Compliance with this paragraph of the rule
shall be documented in the patient’s medical record;
(3) Based on evidence or behavioral indications of
addiction or drug abuse, the practitioner shall obtain a
drug screen on the patient. It is within the
practitioner’s discretion to decide the nature of the
screen and which type of drug(s) to be screened. If the
practitioner obtains a drug screen for the reasons

App. 46
described in this paragraph, the practitioner shall
document the results of the drug screen in the patient’s
medical record. If the patient refuses to consent to a
drug screen ordered by the practitioner, the
practitioner shall make a referral as provided in
paragraph (C) of this rule;
(4) The practitioner shall document in the patient’s
medical record the medical necessity for utilizing more
than one controlled substance in the management of a
patient’s chronic pain; and
(5) The practitioner shall document in the patient’s
medical record the name and address of the patient to
or for whom the prescription drugs were prescribed,
dispensed, or administered, the dates on which
prescription drugs were prescribed, dispensed, or
administered, and the amounts and dosage forms of the
prescription drugs prescribed, dispensed, or
administered, including refills.
(6) The practitioner shall, in accordance with the
requirements set forth in section 4731.055 of the
Revised Code and rule 4731-11-11 of the
Administrative Code, request a report from “OARRS,”
or the successor drug database maintained by the
board of pharmacy.
(C) If the practitioner believes or has reason to believe
that the patient is suffering from addiction or drug
abuse, the practitioner shall immediately consult with
an addiction medicine specialist or other substance
abuse professional to obtain formal assessment of
addiction or drug abuse.

App. 47
(1) For purposes of this rule:
(a) Addiction medicine specialist means a physician
who is qualified by advanced formal training in
addiction medicine or other substance abuse specialty,
and includes a medical doctor or doctor of osteopathic
medicine who is certified by a specialty examining
board to so limit the whole or part of his or her
practice.
(b) Substance abuse professional includes a
psychologist licensed pursuant to Chapter 4732. of the
Revised Code and certified as a clinical health
psychologist, an independent chemical dependency
counselor, or a chemical dependency counselor III.
(2) The practitioner shall do all of the following:
(a) Document the recommendations of the consultation
in the patient’s record;
(b) Continue to actively monitor the patient for signs
and symptoms of addiction, drug abuse or diversion;
and
(c) Maintain a copy of any written report made by the
addiction medicine specialist or substance abuse
professional to whom referral for evaluation was made
under this paragraph.
(3) Prescription drug therapy may be continued
consistent with the recommendations of the
consultation. If the consulting addiction medicine
specialist or other substance abuse professional
believes the patient to be suffering from addiction or

App. 48
drug abuse, prompt referral shall be made to one of the
following:
(a) An addiction medicine specialist or substance abuse
professional; or
(b)An addiction medicine or substance abuse treatment
facility.

App. 49

APPENDIX D
IN THE COMMON PLEAS COURT OF
ROSS COUNTY, OHIO
CIVIL DIVISION
[Filed May 31, 2017]
______________________________________
STATE OF OHIO ex rel. MIKE DeWINE, )
Ohio Attorney General,
)
Plaintiff,
)
)
v.
)
)
PURDUE PHARMA L.P.; PURDUE
)
PHARMA, INC.; THE PURDUE
)
FREDERICK COMPANY, INC.;
)
TEVA PHARMACEUTICAL
)
INDUSTRIES, LTD.; TEVA
)
PHARMACEUTICALS USA, INC.;
)
CEPHALON, INC.; JOHNSON &
)
JOHNSON; JANSSEN
)
PHARMACEUTICALS, INC.;
)
ORTHO-MCNEIL-JANSSEN
)
PHARMACEUTICALS, INC. n/k/a
)
JANSSEN PHARMACEUTICALS, INC.; )
JANSSEN PHARMACEUTICA INC.
)
n/k/a JANSSEN PHARMACEUTICALS, )
INC.; ENDO HEALTH SOLUTIONS
)
INC.; ENDO PHARMACEUTICALS,
)
INC.; ALLERGAN PLC f/k/a ACTAVIS )
PLC; WATSON PHARMACEUTICALS, )

App. 50
INC. n/k/a ACTAVIS, INC.;
WATSON LABORATORIES, INC.;
ACTAVIS LLC; ACTAVIS PHARMA,
INC. f/k/a WATSON PHARMA, INC.;
AND DOES 1 THROUGH 100,
INCLUSIVE,
Defendants.
______________________________________

)
)
)
)
)
)
)
)

COMPLAINT
*

*

*

[p.7]
14.
An estimated 1,162,000 Ohio citizens suffer
from chronic pain,12 which takes an enormous toll on
their health, lives and families. These patients deserve
both appropriate care and the ability to make decisions
based on accurate, complete information about
treatment risks and benefits. But Defendants’
deceptive marketing campaign deprived Ohio patients
and their doctors of the ability to make informed
medical decisions and, instead, caused important,
sometimes life-or-death decisions to be made based not
on science, but on hype. Defendants deprived patients,
their doctors, and health care payors of the chance to
exercise informed judgment and subjected them to
enormous costs and suffering.
*

12

*

*

Report of the Ohio Compassionate Care Task Force
(Mar. 2004).

App. 51
[p.17]
45.
Defendants also deceptively marketed opioids
in Ohio through unbranded advertising – i.e.,
advertising that promotes opioid use generally but does
not name a specific opioid. This advertising was
ostensibly created and disseminated by independent
third parties. But by funding, directing, reviewing,
editing, and distributing this unbranded advertising,
Defendants controlled the deceptive messages
disseminated by these third parties and acted in
concert with them to falsely and misleadingly promote
opioids for the treatment of chronic pain. Much as
Defendants controlled the distribution of their “core
messages” via their own detailers and speaker
programs, Defendants similarly controlled the
distribution of these messages in scientific
publications, treatment guidelines, CMEs, and medical
conferences and seminars. To this end, Defendants
used third-party public relations firms to help control
those messages when they originated from
third-parties.
*

*

*

[pp.28-29]
84.
The 2009 Guidelines promote opioids as “safe
and effective” for treating chronic pain, despite
acknowledging limited evidence, and conclude that the
risk of addiction is manageable for patients regardless
of past abuse histories. One panel member, Dr. Joel
Saper, Clinical Professor of Neurology at Michigan
State University and founder of the Michigan
Headache & Neurological Institute, resigned from the

App. 52
panel because of his concerns that the 2009 Guidelines
were influenced by contributions that drug companies,
including Defendants, made to the sponsoring
organizations and committee members. These
AAPM/APS Guidelines have been a particularly
effective channel of deception and have influenced not
only treating physicians, but also the body of scientific
evidence on opioids; the Guidelines have been cited 732
times in academic literature, were disseminated in
Ohio during the relevant time period, are still available
online, and were reprinted in the Journal of Pain.
*

*

*

[pp.30-31]
88.
To convince doctors and patients that opioids
are safe, Defendants deceptively trivialized and failed
to disclose the risks of long-term opioid use,
particularly the risk of addiction, through a series of
misrepresentations that have been conclusively
debunked by the FDA and CDC. These
misrepresentations – which are described below –
reinforced each other and created the dangerously
misleading impression that: (1) starting patients on
opioids was low-risk because most patients would not
become addicted, and because those who were at
greatest risk of addiction could be readily identified
and managed; (2) patients who displayed signs of
addiction probably were not addicted and, in any event,
could easily be weaned from the drugs; (3) the use of
higher opioid doses, which many patients need to
sustain pain relief as they develop tolerance to the
drugs, do not pose special risks; and
(4) abuse-deterrent opioids both prevent abuse and

App. 53
overdose and are inherently less addictive. Defendants
have not only failed to correct these
misrepresentations, they continue to make them today.
89.
First, Defendants falsely claimed that the
risk of addiction is low and that addiction is unlikely to
develop when opioids are prescribed, as opposed to
obtained illicitly; and failed to disclose the greater risk
of addiction with prolonged use of opioids. Some
illustrative examples of these false and deceptive
claims are described below:
a. Actavis’s predecessor caused a patient education
brochure to be distributed in 2007 that claimed
opioid addiction is possible, but “less likely if you
have never had an addiction problem.” Upon
information and belief, based on Actavis’s
acquisition of its predecessor’s marketing
materials along with the rights to Kadian,
Actavis continued to use this brochure in 2009
and beyond.
b. Cephalon and Purdue sponsored APF’s
Treatment Options: A Guide for People Living
with Pain (2007), which instructed that
addiction is rare and limited to extreme cases of
unauthorized dose escalations, obtaining
duplicative opioid prescriptions from multiple
sources, or theft. This publication is still
available online.
c. Endo sponsored a website, Painknowledge.com,
which claimed in 2009 that “[p]eople who take
opioids as prescribed usually do not become
addicted.” Another Endo website,

App. 54
PainAction.com, stated “Did you know? Most
chronic pain patients do not become addicted to
the opioid medications that are prescribed for
them.”
d. Endo distributed a pamphlet with the Endo logo
entitled Living with Someone with Chronic Pain,
which stated that: “Most health care providers
who treat people with pain agree that most
people do not develop an addiction problem.” A
similar statement appeared on the Endo website
www.opana.com.
e. Janssen reviewed, edited, approved, and
distributed a patient education guide entitled
Finding Relief: Pain Management for Older
Adults (2009), which described as “myth” the
claim that opioids are addictive, and asserted as
fact that “[m]any studies show that opioids are
rarely addictive when used properly for the
management of chronic pain.”
f. Janssen
currently
runs
a
website,
Prescriberesponsibly.com (last updated July 2,
2015), which claims that concerns about opioid
addiction are“overestimated.”
g. Purdue sponsored APF’s A Policymaker’s Guide
to Understanding Pain & Its Management –
which claims that less than 1% of children
prescribed opioids will become addicted and that
pain is undertreated due to “misconceptions
about opioid addiction[].” This publication is still
available online.

App. 55
h. Detailers for Purdue, Endo, Janssen, and
Cephalon in Ohio minimized or omitted any
discussion with doctors of the risk of addiction;
misrepresented the potential for abuse of opioids
with purportedly abuse-deterrent formulations;
and routinely did not correct the
misrepresentations noted above.
*

*

*

